March 31, 2011

JORDAN M. SMALL
VICE PRESIDENT, EASTERN AREA OPERATIONS

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Implementation of Lima, OH to Toledo, OH Area Mail
        Processing Consolidation (Report Number EN-AR-11-004)

This report presents the results of our audit of the Implementation of Lima, OH to
Toledo, OH Area Mail Processing (AMP) Consolidation (Project Number
11XG011EN000). The report responds to congressional inquiries on delayed mail,
service, and safety concerns. Our objective was to assess the operational impacts of
the consolidation after implementation. This audit addresses operational and financial
risk. See Appendix A for additional information about this audit.

AMP consolidations1 are a critical element of the Postal Service’s network plan. As mail
volume has declined, excess capacity for processing mail has increased and
opportunities exist to consolidate operations to reduce costs. AMP consolidations
present the U.S. Postal Service with many challenges in planning, developing, and
implementing changes to mail processing operations.

In January 2010, the Postal Service completed an AMP feasibility study proposing the
consolidation of the Lima Processing and Distribution Facility (P&DF) into the Toledo
Processing and Distribution Center (P&DC). In May 2010, the senior vice president
approved the transfer of all operations and volumes from the Lima P&DF to the Toledo
P&DC based, in part, on projected annual savings of $2.3 million and improving and/or
maintaining customer and service commitments. The Toledo P&DC completed
originating2 and destinating3 mail consolidations on June 30, 2010 and December 31,
2010, respectively.



1
  AMP is the consolidation of all originating and/or destinating distribution operations from one or more Postal Service
facilities into other automated processing facilities for the purpose of improving operational efficiency and/or service.
2
  Originating operations are those associated with the acceptance and initial processing of mail that, for example, is
either tendered at postal retail windows or bulk entry units, or is deposited in collection boxes. Originating processing
marks the beginning stages of its journey in the mail stream.
3
  Destinating operations are those associated with the final processing of mail that, for example, is either drop
shipped at various facilities or received from the network. Destinating processing marks the end stages of its journey
in the mail stream.
Implementation of Lima, OH to Toledo, OH                                                              EN-AR-11-004
 Area Mail Processing Consolidation



Conclusion

While there was a valid business case for the consolidation of the Lima P&DF into the
Toledo P&DC, 4 management did not ensure on-time performance and customer service
were improved or maintained during the implementation of the consolidation. As a
result, customers in Lima Zip Code 458 were negatively impacted. We found that
significant degradations in service occurred after the Postal Service transferred all
operations and volumes from the Lima P&DF to the Toledo P&DC (see Table 1) and
management did not project these degradations in the AMP proposal.5 While
management actively addressed delayed mail issues, these service degradations
continued when we completed our audit work in March 2011.
                         Table 1. Delayed Mail and Missed Service Commitments

                                                         October through
                                                                                         Increase
                                                             December
                                                         2009       2010          Pieces      Percentage
                                                          19.7      46.5           26.8
          Delayed Mail at the Toledo P&DC                                                         136%
                                                         million   Million        million
           Delayed Mail at the Lima P&DF6                457,100     508,640      51,540          11%
       Mail Volume That Did Not Meet Service
                                                         18,352       43,400      25,048          136%
         Commitment7 for Lima Zip Code 458
    Source: Enterprise Data Warehouse (EDW)

In addition, we noted the Occupational Safety and Health Administration (OSHA)
conducted an on-site inspection at the Toledo P&DC on November 4, 2010 in response
to employee complaints. On January 10, 2011, OSHA stated that the Postal Service is
working with their office to settle four OSHA-cited recordkeeping items. Based on our
site visits, we did not identify or receive any complaints on safety issues. Therefore, we
are not making a recommendation.

Operational Impacts of the Consolidation after Implementation

On-time performance and customer service declined in the first 3 months after the
consolidation and this condition continued when we completed our audit work in March
2011. Following the Lima P&DF to the Toledo P&DC consolidation, customers in the
Lima area reported delayed and lost mail concerns to the Postal Service, members of
Congress and news publications. Service concerns described instances of delayed and

4
  The Office of Inspector General (OIG) previously reported that a business case existed to support the AMP
consolidation, Consolidation of Lima Processing and Distribution Facility Mail Operations into the Toledo Processing
and Distribution Center, NO-AR-10-007, July 2, 2010.
5
  According to the AMP proposal, operational clearance times and effectiveness will be improved and/or maintained
with the shift of all operations and volumes to the Toledo P&DC.
6
  The 2010 Lima P&DF delayed mail data was limited to the month of October because all operations and volumes
were transferred from the Lima P&DF to the Toledo P&DC on October 16, 2010.
7
  Pieces that did not meet the service commitment for Express Mail, First-Class Mail® (FCM), Package Services,
Priority Mail, or Standard Mail.


                                                          2
Implementation of Lima, OH to Toledo, OH                                                              EN-AR-11-004
 Area Mail Processing Consolidation


non-receipt of medications and bill payments, advertising mail delivered after the in-
home date, and late delivery to homes and businesses. In addition, the OIG received
410 public comments during a 35-day period from November 24 through December 29,
2010. Seventy-two percent, or 296 responses were delayed mail and late delivery
complaints.

Several factors contributed to service degradations, specifically:

        The AMP proposal8 understated daily first-handled piece (FHP)9 volume by
         approximately 7 percent. The AMP proposal projected the Lima P&DF will add a
         daily FHP volume of 632,630 pieces to Toledo P&DC’s average daily FHP
         volume of 1,693,879 pieces. However, our analysis indicated that 47,000 daily
         FHPs were not included in the AMP proposal. The Cincinnati Network
         Distribution Center (NDC) and the Dayton P&DC processed the 47,000 pieces
         daily for the Lima P&DF prior to the consolidation. The omission was the result of
         not obtaining input from management at both the losing and gaining facilities as
         outlined in Postal Service polices.10

        The Toledo P&DC did not adequately staff operations. According to the AMP
         proposal, management planned to transfer 41 employees to the Toledo P&DC;
         however, only 31 of the 41 employees reported. The other employees were no-
         shows, retreated to other positions, retired, or were on extended leave.
         Management did not create a contingency plan that would have minimized the
         risks of understaffing.

        Morning dispatches to Lima hub facilities were consistently departing the Toledo
         P&DC late. During the week of December 13, 2010, we observed mail arriving on
         the dock platform well after the trucks’ scheduled departure time. In addition, mail
         was not prepared in proper mail transport equipment (MTE) and Highway
         Contract Route (HCR)11 drivers had to perform mail-sorting duties on the dock for
         three Lima area hub facilities. Management attributed this to lack of supervision,
         dispatch discipline, floor space, and MTE. Consequently, the Postal Service
         spent about $29,000 on mail sorting and dispatch late fees from October through
         December 2010.

        Postal Service policies did not require a formal AMP implementation team to
         ensure the AMP was implemented as approved. During our site visit, we
         observed delayed mail, extensive use of manual operations to sort parcels,
         proper signage not in place to indicate dispatch or critical entry time, and letter

8
  Although sufficient machine capacity existed at the Toledo P&DC as discussed in our July 2010 audit report, local
management did not adequately plan for this additional workload.
9
  A letter, flat or parcel that receives its initial distribution at a Postal Service facility.
10
   Handbook PO-408, Area Mail Processing Guidelines, March 2008.
11
   Highway Contract Routes are contracted with private contractors. Individual Postal Service areas control the HCRs,
and Postal Service transportation managers at the area and local levels are responsible for continually reviewing
these routes to balance on time service standards with costs. The Postal Service spends about $3.1 billion annually
on HCR contracts.


                                                         3
Implementation of Lima, OH to Toledo, OH                                                   EN-AR-11-004
 Area Mail Processing Consolidation


           mail processed to carrier routes rather than Delivery Point Sequencing (DPS)12
           due to inefficient sort plans.

          Management elected to transfer all operations and volume during the peak
           mailing season without adjusting mail flow and sort plans timely to meet
           operational changes. While the transition period was limited to six months (July
           through December 2010), management did not complete final planning for the
           consolidation until September 2010, almost four months after the AMP proposal
           was approved.

Although there are many challenges associated with implementing an AMP
consolidation, it is critical to continually monitor and facilitate resolutions timely so that
operational changes do not impede customer and service commitments. Failure to
implement an AMP consolidation seamlessly increases the risk of losing public
confidence and loyalty to the Postal Service. In addition, the Postal Service could
realize cost savings of over $105,000 annually if contract trucks depart on schedule and
mail is sorted in proper MTE during processing. See Appendix B for our detailed
analysis of this topic and Appendix C for monetary impact.

Postal Service Actions – Following the consolidation, management took several actions
to improve customer service including:

          Submitted a proposal to add Small Parcel Bundle Sorter (SPBS) operations on
           Tour 2.
          Updated SPBS sort plans.
          Implemented a new DPS sort plan to increase efficiency.
          Initiated action to assign excessed employees from the Detroit NDC to the
           Toledo P&DC.
          Implemented two additional Lima hub facilities.
          Implemented changes in floor layout.

We recommend the vice president, Eastern Area Operations, direct area and district
management, with input from Toledo Processing and Distribution Center management,
to:

1. Promptly assess the current mail volume and swiftly adjust workhours, sort plans,
   transportation, and any other operational requirements to ensure the Toledo
   Processing and Distribution Center meets customer and service commitments.

2. Expedite filling vacant positions and assess any additional staffing requirements at
   all levels.

3. Assess and take appropriate corrective action related to mail processing space and
   transport equipment requirements, dispatch discipline, contract drivers performing
   mail sortation, and late truck departures.
12
     DPS mail reduces cased letters volume and time spent by the carriers in the office.



                                                            4
Implementation of Lima, OH to Toledo, OH                                        EN-AR-11-004
 Area Mail Processing Consolidation


We recommend the vice president, Network Operations Management:

4. Establish and deploy formal Area Mail Processing implementation teams to the
   gaining facilities for plant consolidations that result in a facility closure to ensure
   consolidations are implemented as approved and to identify and facilitate corrective
   actions timely.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.
Specifically, for recommendations 1 and 2, management will continually monitor and
assess workload and capabilities at the Toledo P&DC and make the necessary
adjustments. Additionally, for recommendation 3, management deployed a team on
March 7, 2011, to assess and improve mail flow, MTE processing and staging, and
overall site layout at the Toledo P&DC. By the beginning of Quarter 4, FY 2011
management plans to implement all improvements made by the team. Lastly, for
recommendation 4, management will establish and deploy a formal AMP
implementation team to the gaining facility for facility closures effective Quarter 3, FY
2011. See Appendix D for management’s comments in their entirety

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions taken and planned should resolve the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at 703-248-2100.

    E-Signed by Robert Batta
  VERIFY authenticity with e-Sign




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                             5
Implementation of Lima, OH to Toledo, OH       EN-AR-11-004
 Area Mail Processing Consolidation



cc: Patrick R. Donahoe
    Megan J. Brennan
    Chu Falling Star
    Damon M. Manz
    Frank Neri
    Troy R. Seanor
    Kristin A. Seaver
    Reginald M. Truss
    Corporate Audit and Response Management




                                           6
Implementation of Lima, OH to Toledo, OH                                                            EN-AR-11-004
 Area Mail Processing Consolidation


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in FCM volume13 over the past decade. The Postal Service’s
financial condition continued to decline over the past fiscal year (FY) and its financial
outlook is poor for FY 2011 and the foreseeable future. FY 2010 included a record loss
of about $8.5 billion for the Postal Service, which has released its budget for FY 2011
and projects a $6.4 billion loss - one of the largest in the Postal Service’s history.

The Postal Service’s revenue drop in FY 2010 was driven by mail volume decline,
totaling about 6 billion pieces from FY 2009. This volume was about 20 percent below
the peak of 213 billion pieces delivered during FY 2006. Most of the volume decline was
in profitable FCM, which was particularly significant because the average piece of FCM
generates about three times the profitability of the average piece of Standard Mail. The
Postal Service projects mail volume to increase by about 2 billion pieces in FY 2011;
however, FCM is expected to decrease by 3 billion pieces with an increase in other
classes of mail.

In recent testimony before Congress,14 the U.S. Government Accountability Office
(GAO) found that deteriorating financial conditions and declining mail volume have
reinforced the Postal Service’s need to increase operational efficiency and reduce
expenses in its mail processing network. Title 39 U.S.C., § 101, Part 1, Chapter 1,
states that the Postal Service “…shall provide prompt, reliable, and efficient services to
patrons in all areas.” Further, the September 2005 Postal Service Strategic
Transformation Plan states, “The Postal Service will continue to provide timely, reliable
delivery to every address at reasonable rates.” The Postal and Accountability
Enhancement Act, P.L. 109-435, Title II, dated December 20, 2006 highlights “... the
need for the Postal Service to increase its efficiency and reduce its costs, including
infrastructure costs, to help maintain high quality, affordable postal services…”

The Postal Service has made limited progress in implementing AMP consolidations in
the P&DC network. At the end of FY 2010, there were 260 P&DCs nationwide and,
since FY 2005, the Postal Service has implemented 37 AMP consolidations. Only six
consolidations have resulted in full facility closures.15




13
   According to the Postal Service’s FY 2010 Comprehensive Statement, “First-Class Mail revenue was $34 billion, or
51 percent of the total Postal Service revenue of $67.1 billion.”
14
   Testimony to the Congressional Committees: Mail Processing Network Initiatives Progressing and Guidance for
Consolidating Area Mail Processing Operations Being Followed (GAO-10-731, dated June 2010).
15
   The Lima, OH P&DF, Charlottesville, VA P&DF, Wilkes-Barre, PA P&DC, and Marysville, CA P&DF closed in 2010.
The Kansas City, KS P&DC closed in 2009 and the Marina, CA P&DC closed in 2005.


                                                        7
Implementation of Lima, OH to Toledo, OH                                      EN-AR-11-004
 Area Mail Processing Consolidation



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the operational impacts of the Lima consolidation after
implementation. We conducted this review in response to congressional inquiries on
delayed mail, service, and safety complaints. This audit addresses operational and
financial risks.

We reviewed current and historical data and performed an independent analysis of mail
volume, mail class, service standards, workhours, and employee complement prior to
and following the consolidation. In November and December 2010, we observed and
photographed operations at the Toledo P&DC. In addition, we observed HCR
transportations to and from Toledo P&DC and Lima hub facilities. We interviewed Postal
Service officials and employees and reviewed applicable guidelines, including
Handbook PO-408.

We used computer-processed data from the following systems to analyze workhours,
mail volume, staffing, service, and transportation:

      EDW;
      Customer Satisfaction Measurement System;
      Web Complement Information System;
      Transportation Contract Support System; and
      Transportation Information Management System.

We conducted this performance audit from November 2010 through March 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on February 14, 2011 and
included their comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems. We did not test the validity of controls over these systems.
However, we verified the accuracy of the data by confirming our analysis and results
with Postal Service managers and other data sources.




                                            8
      Implementation of Lima, OH to Toledo, OH                                                           EN-AR-11-004
       Area Mail Processing Consolidation


      PRIOR AUDIT COVERAGE

                                                Final
                               Report
      Report Title                             Report                                 Report Results
                               Number
                                                Date
Marysville, CA               NO-AR-11-002    11/23/2010          A valid business case existed for consolidating mail
Processing and                                                   processing operations from the Marysville P&DF to
Distribution Facility                                            the Sacramento P&DC.
Consolidation
Review of Wilkes-Barre,      NO-AR-11-001        11/4/2010       A valid business case existed for the consolidation.
PA Processing and                                                There was capacity as well as the potential to improve
Distribution                                                     customer service and efficiency. No career employees
Facility Consolidation                                           were laid off as a result of the consolidation and the
                                                                 Postal Service could save $5.2 million annually.
Charlottesville              NO-AR-10-008        8/3/2010        A valid business case existed for the consolidation.
Processing and                                                   There was sufficient capacity as well as the potential
Distribution Facility                                            to improve customer service and efficiency. No career
Consolidation                                                    employees were laid off as a result of the
                                                                 consolidation and the Postal Service could save $6.5
                                                                 million annually.
Consolidation of Lima        NO-AR-10-007        7/2/2010        A business case existed to support consolidating the
Processing and                                                   Lima P&DF’s mail operations into the Toledo P&DC.
Distribution Facility Mail                                       Management agreed to monitor service scores,
Operations into the                                              continue to hold employee briefings, and ensure
Toledo Processing and                                            facility security.
Distribution Center
Kansas City, Kansas          EN-AR-08-001        1/14/2008       The AMP proposal, supporting documentation, and
Processing and                                                   OIG analyses provided confirming evidence for
Distribution Center                                              consolidating mail processing operations from the
Consolidation                                                    Kansas City, KS P&DC to the Kansas City, MO P&DC.
                                                                 However, the OIG identified discrepancies in some
                                                                 costs and savings calculations, as well as transferred
                                                                 mail volume not documented and downgrades in some
                                                                 classes of mail and other potential risks.
Post-Implementation          EN-AR-07-004        8/14/2007       Our audit disclosed the support and accuracy of the
Reviews of the Marina                                            Marina post-implementation reviews could be
Processing                                                       improved. However, the economy and efficiencies
and Distribution Center                                          associated with the consolidation resulted in
Area Mail Processing                                             considerable savings. Our analyses provided
Consolidation                                                    confirming evidence for reduced workhours,
                                                                 considerable cost savings (including about $75 million
                                                                 from the sale of the Marina P&DC facility) and
                                                                 improved productivity.
Timeliness of Mail           NO-AR-07-001        2/9/2007         The audit confirmed that during the period July 2005
Processing at the Los                                             through May 2006, the Los Angeles P&DC had
Angeles, California                                               difficulty with the timely processing of mail, resulting in
Processing and                                                    mail delays and service declines. The excessive
Distribution Center                                               amount of delayed mail was partially due to the influx
                                                                  of mail volume as a result of closing the Marina Del
                                                                  Rey P&DC.




                                                             9
Implementation of Lima, OH to Toledo, OH                                       EN-AR-11-004
 Area Mail Processing Consolidation



                             APPENDIX B: DETAILED ANALYSIS

Operational Impacts of the Consolidation After Implementation

In December 2010, the Postal Service completed the Lima, OH to Toledo, OH AMP
consolidation. We found significant degradations in service occurred after the Postal
Service transferred all operations and volumes from the Lima P&DF to the Toledo
P&DC and management did not project these degradations in the AMP proposal. We
identified four major factors that adversely affected customer and service commitments
and the Toledo P&DC’s ability to process mail timely:

      Mail volume was more than anticipated;
      Operations were not adequately staffed;
      Mail dispatches were consistently late; and
      An AMP implementation team was not required by policy or used.

Mail Volume

The Toledo P&DC received more mail to process than anticipated. The AMP proposal
projected that a daily FHP volume of 632,630 pieces from the Lima P&DF would be
added to the Toledo P&DC’s average daily FHP volume of 1,693,879 pieces, for a total
of 2,326,509 daily pieces. However, during the 4 weeks following the consolidation, the
average daily volume was 2,537,265; a daily increase of 210,756 pieces or 9 percent
(see Chart 1).
                     Chart 1. Toledo FHP Volume by Week for Fiscal Year 2010




    Source: EDW



                                               10
Implementation of Lima, OH to Toledo, OH                                                                                       EN-AR-11-004
 Area Mail Processing Consolidation


The AMP proposal understated daily FHP volume by approximately 7 percent. The
Headquarters Network Alignment Implementation official stated the AMP proposal was
approved based on volume processed by the Lima P&DF. Our analysis indicated that
the Cincinnati NDC and the Dayton P&DC processed approximately 47,000 FHP daily
for the Lima P&DF and the Postal Service did not include these volumes in the AMP
proposal. Prior to the consolidation, both the Dayton P&DC and the Cincinnati NDC
processed mail to the 5-digit Zip Code level for the Lima P&DF to perform dock
transfers (see Chart 2). The omission was the result of not obtaining input from
management at both the losing and gaining facilities as outline in Postal Service polices.



                                   CHART 2. PRE-AMP CONSOLIDATION
       FHP Volume Cross Dock at the Lima, OH P&DF from the Dayton, OH P&DC and Cincinnati, OH NDC




                                             The Dayton P&DC daily
                  Dayton, OH
                  P&DC                       -sorted approximately 42,000 letters
                                             daily to the 5-digit level.

                                             - processed approximately 2,500                         Lima, OH P&DF
                                             destinating flats down to the carrier
                                             route, requiring only a dock transfer
                                             at the Lima P&DF.


                 Mail from the
                 World                                                                            Cross dock mail from
                                                                                                  Dayton P&DC and
                                                                                                  Cincinnati NDC to Lima, OH
                                                                                                  Post Offices.




                 Cincinnati , OH
                                             The Cincinnati NDC daily
                 NDC
                                             -processed approximately 2,500
                                             Priority Mail, FC and Standard
                                             Parcels, requiring only a dock transfer
                                             at the Lima P&DF



                                                                                       Lima, OH Post Office




The Cincinnati NDC processed approximately 2,500 Priority, First-Class, and Standard
Parcels to the 5-digit Zip Code daily for Lima Post Offices, requiring only dock transfers
at the Lima P&DC. Additionally, the Dayton P&DC processed and sorted all Lima letters
to the 5-digit Zip Code level. During January through September 2010, this volume was
approximately 42,000 FHP per day for FC and standard letters. The Dayton P&DC also
processed and sorted all Lima destinating flats to carrier route, a volume of
approximately 2,500 pieces per day. On October 4, 2010, the Postal Service updated
the national distribution labeling list. Consequently, all Lima Zip Code 458 volumes are
mixed with Toledo Zip Codes 434-436 and sent to the Toledo P&DC for processing.

Processing the additional volume affected several Toledo P&DC operations. For
example, all classes of parcels, which required dock transfers only at the Lima P&DF,
are now mixed with other parcels destined for the Toledo service area. Lima area


                                                                    11
Implementation of Lima, OH to Toledo, OH                                                           EN-AR-11-004
 Area Mail Processing Consolidation


parcels must be separated from Toledo area parcels before they can be sorted to
individual Lima area offices. The Toledo P&DC did not have sufficient holdout bins on
the SPBS16 to separate the parcels to all Toledo and Lima area offices in one run.

Consequently, on-time performance and customer service continued to decline in the
first 3 months after the consolidation17 and these conditions continued when we
completed our audit work in March 2011 (see Illustrations 1 and 2). As shown in Chart
3, delayed mail volume increased significantly from October through December 2010
compared to the same period last year. Also, percentages of scanned mailpieces that
met service commitments for Lima Zip Code 458 decreased compared to the same
period last year (see Chart 4).



  Illustration 1. Six
       cardboard
     containers of
    Priority Parcels
  received from the
    Detroit NDC on
 December 15, 2010
 were processed on
 December 17, 2010
   and delivered on
 December 18, 2010.




    Illustration 2.
 Standard Mail dated
 November 16, 2010
    scheduled for
 delivery on Monday
 November 22, 2010
 was still waiting for
  processing during
   our site visit on
 November 22, 2010.




16
   Equipment that mechanizes the sorting of small parcels and bundles by receiving and sorting them into a maximum
of 132 separate output bins. The mechanical capacity of the SPBS is approximately 11,000 pieces sorted per hour.
17
   In our July 2010 audit report, we reported that in Quarter 1, FY 2010, both overnight and 3-day service scores
declined for the Lima P&DF and Toledo P&DC. Based on these service performances, management must ensure
adequate controls are in place to maintain service during implementation of this consolidation.


                                                       12
Implementation of Lima, OH to Toledo, OH                                           EN-AR-11-004
 Area Mail Processing Consolidation

                      Chart 3. Delayed Processing Volume at the Toledo P&DC




Source: EDW

              Chart 4. On-Time Performance of Scanned Products for Lima Zip Code 458




Source: EDW

Staffing

The staffing analysis included in the AMP proposal called for an increase of 41 craft
positions and no change in the supervisory staffing at the Toledo P&DC. The 41
employees represent an increase of 12 percent in staffing to process a proposed
increase in volume of 37 percent. Additionally, the staffing analysis called for an
increase in the craft employee to supervisor ratio, effectively eliminating six supervisor
positions during the consolidation.

When the Postal Service completed full consolidation on October 16, 2010, 31
employees reported to the Toledo P&DC. The other employees were no-shows,
retreated to other positions, retired, or were on extended leave. Toledo P&DC
management did not create a contingent plan that would have minimized the risks of
understaffing. The understaffing during implementation had a substantial impact on
Toledo P&DC mail processing operations.


                                                13
Implementation of Lima, OH to Toledo, OH                                        EN-AR-11-004
 Area Mail Processing Consolidation



As a temporary remedy for the holiday mailing season, area management negotiated a
verbal agreement with the local union representative to increase the number of casual
employees. In addition, area management initiated action to assign excessed
employees from the Detroit NDC to the Toledo P&DC. At the time of our report, eight
former Detroit employees reported to the Toledo P&DC.

Mail Dispatch

During our site visits, we observed that morning dispatches to Lima hub facilities were
consistently departing the Toledo P&DC late. In addition, we noted the mail was not
prepared in proper MTE and HRC drivers had to perform mail sorting duties on the dock
(see Illustration 3). In one instance, we found containers of parcels in the plant ready for
dispatch, but having missed the scheduled dispatch time. The manager stated he would
arrange for an extra HCR trip the same day to deliver the parcels to Lima. The
continuing late dispatches have a negative impact on customer service and Lima Area
Post Office operations (see Chart 5).




    Illustration 3. A
driver receiving mail
  in wire containers
   and all purpose
containers must sort
      the mail into
   hampers for the
  Lima area offices.
   This picture was
 taken on December
 14, 2010. The driver
  was scheduled to
leave at 5:00 AM, but
    left at 6:15 AM.




                                             14
Implementation of Lima, OH to Toledo, OH                                          EN-AR-11-004
 Area Mail Processing Consolidation

                                   Chart 5. Failed Volume for Lima Zip Code 458




Source: EDW

Management attributed the late and extra trips to lack of supervision, dispatch
discipline, MTE and floor space. Management stated that they relied on the mail
handlers to move the mail because the Toledo P&DC does not have a position for a
dedicated dock supervisor or expeditor. In addition, management stated there was no
available hamper equipment in the entire Cincinnati District. Management added that
they do not have sufficient floor space to accommodate hamper equipment. We
observed that not all space in the Toledo P&DC is available for mail processing. About a
year ago, carrier units moved into 4,500 square feet of space that the plant was using to
process priority mail. Management made the decision to move the carrier units into the
plant prior to the AMP proposal approval.

Toledo P&DC management, in coordination with area management, modified HCR
contracts to include mail-sorting duties for three of the Lima area hub facilities. The cost
for this service is about $20,000 annually. The Postal Service is required to pay highway
contractors for extra service and late fees when they require extra service or cause the
late departures. In addition, Toledo P&DC management stated transportation costs
have significantly increased due to unscheduled extra trips to Lima. However,
management did not complete PS Forms 542918 to substantiate the assertion (see our
discussion below). We estimated the Postal Service could realize cost savings of over
$105,000 if HCR trucks depart on schedule and mail is sorted in proper MTE during
processing (see Appendix C for our monetary impact calculation).

The Toledo P&DC did not follow prescribed Postal Service procedures for completing
PS Form 5429 in a timely manner. The Toledo P&DC had not processed these forms
from September through December 2010 due to other priorities. The Postal Service is
required to pay highway contractors for extra service and late fees when they cause the
late departures. Facilities are required to complete and submit a PS Form 5429 for
payment in a timely manner, which is no later than the first day of the month following
the month in which the service was performed. Not processing these forms in a timely
manner prevents contractor payments and can result in improper accounting,
18
     Certification of Exceptional Contract Service.


                                                       15
Implementation of Lima, OH to Toledo, OH                                                                EN-AR-11-004
 Area Mail Processing Consolidation


budgeting, and fraud potential. On January 19, 2011, Toledo P&DC management stated
they have added resources to expedite the completion and submission of
PS Forms 5429. We are not making a recommendation on this finding because
management took action during the audit to complete PS Form 5429.

AMP Implementation Team

While there is guidance for an AMP consolidation, a formal AMP consolidation
implementation team is not required for complex consolidations that result in a facility
closure. Using the approach similar to the NDC Activation Team’s would mitigate some
of the challenges that adversely affected the Toledo P&DC’s ability to process mail
timely and meet customer and service commitments.

For example:

        There were large volumes of delayed parcels and management used manual
         operations to sort parcels. Toledo P&DC management stated that Tour 3 SPBS
         operations were not sufficient to meet volume. On November 27, 2010,
         management developed a new sort plan to increase SPBS efficiency and, in
         December 2010, developed a proposal to add SPBS operations on Tour 2.

        The Toledo P&DC was not able to finalize mail in time to meet Lima dispatch
         schedules. In some cases, the Toledo P&DC processed mail to carrier routes
         rather than to DPS. Carrier route mail requires manual casing at delivery units,
         further affecting downstream Post Office operations. On November 27, 2010,
         management initiated new sort plans to increase Delivery Barcode Sorter19
         efficiency.

        An operational space layout for the Toledo P&DC had not been completed (see
         Illustration 4). Proper signage was not in place in the various operations to
         indicate dispatch or critical entry times. Mail flow throughout the facility was often
         cramped and congested.

Toledo P&DC management elected to transfer all operations and volume during peak
mailing season, but did not adjust mail flow and sort plans timely to meet operational
changes. While the transition period was limited to six months (July through December
2010), management did not complete final planning for the consolidation until
September 2010, almost four months after the AMP proposal was approved. We believe
a formal implementation team will provide oversight and assist with resolving problems
during the implementation period.




19
   Equipment that sorts letter-size mail by using a barcode reader to interpret an imprinted barcode. It consists of a
mail feed and transport unit, barcode reader, stacker module, and associated electronic equipment that can sort into
a large number of separations.


                                                          16
Implementation of Lima, OH to Toledo, OH                                       EN-AR-11-004
 Area Mail Processing Consolidation



  Illustration 4. A
    maintenance
  employee adds
     lanes to the
  workroom floor
    at the Toledo
        P&DC,
   November 22,
         2010.



Public Input

As shown in Chart 6, we asked for and received 410 public comments, using an
external blog on the OIG website, on how the Lima OH AMP consolidation affected
them. Separately, the Cincinnati District Consumer Affairs Office received 610
complaints related to the AMP consolidation during the period October through
December 2010 as shown in Chart 7.
  Chart 6. Number and Type of Comments Received on the OIG’s web site from November 24 to
                                   December 29, 2010




                                            17
Implementation of Lima, OH to Toledo, OH                                   EN-AR-11-004
 Area Mail Processing Consolidation

                         Chart 7. Lima Zip Code 458 Customers Complaints




                                               18
Implementation of Lima, OH to Toledo, OH                                                     EN-AR-11-004
 Area Mail Processing Consolidation


                                   APPENDIX C: MONETARY IMPACT

                                                                3 Months’ Cost
                                                               Savings (October       Estimated Annual
                  HCR Service Fees
                                                              through December          Cost Savings
                                                                    2010)
 HCR Driver Performing Mail Sort
                                                                         $5,000                $20,000
 Function
 HCR Late Trips                                                          23,782                 95,128

                       Total Funds Put To Better Use20                                        $105,125

HCR Drivers Performing Sorting Functions – due to a lack of MTE and sorting space in
the Toledo P&DC, HCR drivers had to sort mail prior to dispatch. In order to
compensate drivers for their time, the Postal Service negotiated contract increases of
approximately $5,000 from October through December 2010.

Late Trips by HCR Contractors – the Postal Service compensated HCR drivers
$23,781.65 in late fees from October through December 2010. These payments were
the result of the Postal Service keeping HCR trucks from departing on schedule to Lima
hub offices.




20
     Funds that could be used more efficiently by implementing recommended actions.


                                                         19
Implementation of Lima, OH to Toledo, OH                   EN-AR-11-004
 Area Mail Processing Consolidation


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                           20
Implementation of Lima, OH to Toledo, OH        EN-AR-11-004
 Area Mail Processing Consolidation




                                           21
Implementation of Lima, OH to Toledo, OH        EN-AR-11-004
 Area Mail Processing Consolidation




                                           22
Implementation of Lima, OH to Toledo, OH        EN-AR-11-004
 Area Mail Processing Consolidation




                                           23
